No. _____
In the

Supreme Court of the United States
__________________

JAIRO ACOSTA,
POLICE OFFICER FOR THE CITY OF LOS BANOS,
Petitioner,
v.
TAN LAM,
AS SUCCESSOR-IN-INTEREST TO DECEDENT SONNY LAM
(AKA SON TUNG LAM),

Respondent.
__________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________

DALE ALLEN
KEVIN P. ALLEN
Allen, Glaessner,
Hazelwood & Werth, LLP
180 Montgomery Street
Suite 1200
San Francisco, CA 94101
kallen@aghwlaw.com
Counsel for Petitioner

SUZANNE M. NICHOLSON
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
Tel: 916-361-6551
suzanne@smnlegal.com

April 15, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Is it plain error to admit evidence of a police
officer’s remote PTSD diagnosis to challenge the
officer’s credibility and prove he was more likely to
have acted unreasonably in his use of force where
there is no evidence the officer suffered from or
experienced any symptoms of PTSD at the time of
the incident?
2. If a suspect has stabbed an officer, been shot and
wounded by the officer, dropped his weapon and
continued to advance on the officer in a confined
and unfamiliar space, all within a matter of
seconds, does clearly established law put every
reasonable officer on notice that the suspect no
longer poses an immediate threat and prohibit the
officer from firing a second shot to subdue the
suspect?

ii
PARTIES TO THE PROCEEDING
Petitioner and Defendant below is Jairo Acosta,
Police Officer for the City of Los Banos, California.
Respondent and Plaintiff below is Tan Lam, as
Successor-in-Interest to Decedent Sonny Lam (aka Son
Tung Lam).
The City of Los Banos, a Municipal Corporation and
Defendant below, is not a party to this Petition.
RULE 29.6 CORPORATE DISCLOSURE STATEMENT
All parties before the Court are individuals.
STATEMENT OF RELATED PROCEEDINGS
United States District Court for the Eastern
District of California, Case Number 2:15-CV-531 MCE,
entitled Tan Lam v. City of Los Banos et al. Judgment
entered on August 16, 2018.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . ii
RULE 29.6 CORPORATE DISCLOSURE
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. The Incident. . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. District Court Proceedings . . . . . . . . . . . . . . . 7
C. Ninth Circuit Opinion – Split Decision . . . . 11
REASONS FOR GRANTING THE WRIT. . . . . . . . 12
I. Where there is no evidence an officer suffers
from PTSD or any symptoms thereof at the time
of the incident in question, it is plain error to
admit evidence of a remote PTSD diagnosis to
attack the officer’s credibility and prove he acted
unreasonably in his use of force . . . . . . . . . . . . . 12

iv
A. The majority opinion represents a marked
departure from the decisions of other circuits,
none of which have held a witness’ mental
health issues may be used to impeach their
credibility in the absence of evidence the
witness suffered from the condition at or
around the time of the incident in question
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. Where, as here, there is no evidence the
witness suffered from the mental health
condition at or around the time of the
incident in question, the admission of a
remote mental health diagnosis presents an
unacceptable risk of prejudice and
constitutes plain error. . . . . . . . . . . . . . . . . . 18
II. The opinion below improperly denies qualified
immunity by defining the circumstances facing
Acosta at a high level of generality: there was no
clearly established law that would put every
reasonable officer on notice that a suspect who,
within a matter of seconds has stabbed an
officer, been shot, and dropped his weapon but
continues to advance on the officer in a confined
space does not pose an immediate threat . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(September 25, 2020) . . . . . . . . . . App. 1

v
Appendix B Memorandum and Order in the
United States District Court Eastern
District of California
(November 20, 2018) . . . . . . . . . . App. 61
Appendix C Judgment in a Civil Case in the
United States District Court Eastern
District of California
(August 16, 2018) . . . . . . . . . . . . App. 67
Appendix D Verdict Form in the United States
District Court Eastern District of California
(August 15, 2018) . . . . . . . . . . . . App. 68
Appendix E Order in the United States Court of
Appeals for the Ninth Circuit
(November 16, 2020) . . . . . . . . . . App. 75

vi
TABLE OF AUTHORITIES
CASES
Ashcoft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . . . . . . 22
Brockington v. Boykins,
637 F.3d 503 (4th Cir. 2011). . . . . . . . . . . . . . . . 27
Brosseau v. Haugen,
543 U.S. 194 (2004) (per curiam) . . . . . . . . . . . . 23
City and County of San Francisco v. Sheehan,
135 S.Ct. 1765 (2015) . . . . . . . . . . . . . . . . . . . . . 22
City of Escondido v. Emmons,
139 S.Ct. 500 (2019) (per curiam) . . . . . . . . . . . 22
District of Columbia v. Wesby,
138 S.Ct. 577 (2018) . . . . . . . . . . . . . . . . . . . . . . 28
Estate of Jones v. City of Martinsburg,
961 F.3d 661 (4th Cir. 2020). . . . . . . . . . . . . . . . 27
Estate of Smart v. City of Wichita,
951 F.3d 1161 (10th Cir. 2020). . . . . . . . . . . . . . 27
Fancher v. Barrientos,
723 F.3d 1191 (10th Cir. 2013). . . . . . . . . . . . . . 27
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . . . . 26
Harris v. Pittman,
927 F.3d 266 (4th Cir. 2019). . . . . . . . . . . . . . . . 27

vii
Hopkins v. Andaya,
958 F.2d 881 (9th Cir. 1992) (per curiam)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25, 26
Isayeva v. Sacramento Sheriff’s Department,
872 F.3d 938 (9th Cir. 2017). . . . . . . . . . . . . 23, 24
Kisela v. Hughes,
138 S.Ct. 1148 (2018) (per curiam) . . . . . . . 22, 26
Meyers v. Baltimore Cnty.,
713 F.3d 723 (4th Cir. 2013). . . . . . . . . . . . . . . . 27
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . 24, 30
Tennessee v. Garner,
471 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Antone,
981 F.2d 1059 (9th Cir. 1992). . . . . . . . . . . . . . . 16
United States v. Butt,
955 F.2d 77 (1st Cir. 1992) . . . . . . . . . . . . . . 17, 18
United States v. Hitt,
981 F.2d 422 (9th Cir. 1992). . . . . . . . . . . . . . . . 19
United States v. Kohring,
637 F.3d 895 (9th Cir. 2011). . . . . . . . . . . . . . . . 16
United States v. Love,
329 F.3d 981 (8th Cir. 2003). . . . . . . . . . . . . . . . 15
United States v. Sasso,
59 F.3d 341 (2d Cir. 1995) . . . . . . . . . . . . . . . . . 15

viii
United States v. Smith,
77 F.3d 511 (D.C. Cir. 1996). . . . . . . . . . . . . . . . 16
Zion v. County of Orange,
874 F.3d 1072 (9th Cir. 2017). . . . . . . . . . . . . . . 26
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1367 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 7
Fed. R. Civ. P. 50(a) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fed. R. Civ. P. 50(b) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fed. R. Evid. 404(a)(1) . . . . . . . . . . . . . . . . . . . . . . . 18
OTHER AUTHORITIES
Tammy L. Austin-Ketch, PhD., FNP, BC, FAANP
et al.,
Addictions and the Criminal Justice System,
What Happens on the Other Side? PostTraumatic Stress Symptoms and Cortisol
Measures in a Police Cohort,
23 J. OF ADDICTIONS NURSING 22 . . . . . . . . . . . . 12

ix
Nexhmedin Morina et al.,
Remission from Post-Traumatic Stress
Disorder in Adults: A Systematic Review and
Meta-Analysis of Long Term Outcome Studies,
34 CLINICAL PSYCHOL. REV. 249 (2014) . . . . . . . 13
National Institute of Mental Health (“NIH”),
Post Traumatic Stress Disorder (PTSD) (2017),
at https://www.nimh.nih.gov/health/statitics/
post-traumatic-stress-disorder-ptsd.shtml . . . . 12
Patcho Santiago, M.D. et al.,
A Systematic Review of PTSD Prevalence and
Trajectories in DSM-5 DefinedTrauma
Exposed Populations: Intentional and NonIntentional Traumatic Events, 8 PLOS ONE 4,
(2013)[doi:10.1371/ journal.pone.0059236]. . . 12-13
Arieh Shalev, M.D. et al.,
Post-Traumatic Stress Disorder,
New Eng. J. Med. 2459, (2017) . . . . . . . . . . . . . 12
Zahava Solomon Ph.D. et al.,
Trajectories of PTSD: A 20-Year Longitudinal
Study,
163 AM. J. PSYCHIATRY 659 (2006) . . . . . . . . . . . 13

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Jairo Acosta respectfully petitions for a
writ of certiorari to review the opinion and judgment of
the United States Court of Appeals for the Ninth
Circuit in this case.
OPINIONS BELOW
The order of the United States Court of Appeals for
the Ninth Circuit denying panel rehearing and
rehearing en banc (Appendix E) is available at 2020
U.S. App. LEXIS 35895*.
The opinion of the United States Court of Appeals
for the Ninth Circuit (Appendix A) is published and
reported at 976 F.3d 986.
The memorandum and order of the United States
District Court for the Eastern District of California
granting in part plaintiff’s motion for attorney fees and
granting defendant’s motion to correct the record on
appeal is available at 2019 U.S. Dist. LEXIS 81428*
[2019 WL 2103407].
The memorandum and order of the United States
District Court for the Eastern District of California
denying defendant’s Rule 50(b) renewed motion for
judgment as a matter of law, or, alternatively, for a
new trial (Appendix B), is available at 2018 U.S. Dist.
LEXIS 198059* [2018 WL 6068048].
The memorandum and order of the United States
District Court for the Eastern District of California
granting in part and denying in part defendants’

2
motion for summary judgment is available at 2017 U.S.
Dist. LEXIS 48418* [2017 WL 1179136].
The judgment of the United States District Court
for the Eastern District of California (Appendix C)
entered in accordance with the jury verdict (Appendix
D) is unreported.
JURISDICTION
The United States Court of Appeals for the Ninth
Circuit issued its opinion on September 25, 2020. App.
1-60. It entered an order denying rehearing and
rehearing en banc on November 16, 2020. App. 75-76.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Lam alleged that Officer Acosta violated his son’s
civil rights under the Fourth Amendment to the United
States Constitution, which provides in pertinent part:
The right of the people to be secure in their
person, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated . . . .
Lam brought this action under 42. U.S.C. § 1983, which
provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any

3
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress . . . .
INTRODUCTION
This case involves two issues arising out of a jury’s
finding that Petitioner Jairo Acosta, a police officer for
the City of Los Banos, used excessive force when he
fatally shot plaintiff Tan Lam’s son, Sonny Lam, after
he responded to a call of an assault and matters rapidly
escalated. Acosta encountered Sonny Lam in his
bedroom. Sonny immediately became agitated, pushed
Acosta out of the room, and then grabbed a pair of
scissors and stabbed Acosta in the forearm. Acosta shot
Sonny in the leg, wounding him. Acosta then backed
down a narrow hallway in the home while he
attempted to clear his weapon, which had jammed after
the first shot. Sonny continued to advance on Acosta,
wounded but now – according to the jury’s special
verdict – unarmed. As soon as Acosta cleared his
weapon, he fired a second shot, whereupon Sonny fell
to the ground and later died of his injuries. The entire
sequence of events from the first to the second shot
lasted only a few seconds.
The first issue involves the district court’s
admission of evidence that Acosta, an Iraq war veteran,
had been diagnosed with post-traumatic stress disorder
two-and-a-half years prior to this incident. There was
no evidence Acosta suffered from PTSD or any
symptoms thereof at or around the time of this
incident. Nevertheless, plaintiff Lam used the evidence
to urge the jury to speculate that Acosta did suffer from

4
PTSD on the day of this incident, that he brought his
“demons” with him to Lam’s home, and acted as one
might expect someone suffering from PTSD to act;
unreasonably and in violation of the Fourth
Amendment.
In a split decision, the Court of Appeals for the
Ninth Circuit disregarded the extreme prejudice
resulting from this use of the evidence and held that
Acosta’s remote mental health diagnosis was properly
admitted as relevant to his credibility, even in the
absence of any nexus between that diagnosis and the
incident at issue. This is a marked departure from the
established precedent of numerous circuits. And, with
an extremely high incidence of PTSD amongst law
enforcement officers in this country, it creates a very
real danger that those officers will now be subject to
unprecedented attacks on their credibility unless or
until they can prove they have engaged in treatment
and/or fully recovered, even if their conditions or
symptoms have long since subsided or disappeared. Not
only does this turn the normal burdens of proof on their
head, it may well discourage law enforcement officers
from seeking professional help in the first instance, an
undeniably undesirable result.
The second issue is one this Court has addressed
repeatedly – particularly in cases coming out of the
Ninth Circuit – which is that Circuit’s insistence on
defining clearly established rights at an extremely high
level of generality when analyzing whether an officer is
entitled to qualified immunity. The panel majority here
defined the law as clearly established that an officer
may not use lethal force on a suspect who does not pose

5
an immediate threat. This broad generalization is no
more than a reiteration of the rule that an officer may
not use excessive force. Analyzing qualified immunity
at the requisite level of specificity, there was no clearly
established law that would put every reasonable officer
on notice that a suspect who, within a matter of
seconds has stabbed the officer, been shot, and dropped
his weapon but continues to advance on the officer in a
confined space does not pose an immediate threat.
This Court should grant this petition on both issues
presented, or alternatively, summarily reverse the
decision of the Ninth Circuit as to those issues.
STATEMENT OF THE CASE
This is a civil rights action brought pursuant to 42
U.S.C. § 1983 in the United States District Court for
the Eastern District of California, the jurisdiction of
which was invoked pursuant to 28 U.S.C. § 1331
(general federal question jurisdiction), 28 U.S.C. § 1343
(civil rights jurisdiction), and 28 U.S.C. § 1367
(supplemental jurisdiction).
A. The Incident
In September of 2013, Officer Jairo Acosta
responded to a call of an assault at the residence of
Respondent Tan Lam. ER 165, 187. When Acosta
arrived, Lam told him his son had hit him, and had
“lost his mind.” ER 188, 235. Lam led Acosta into the
home through the garage, which opened into a laundry
room, which in turn opened into a hallway with
Sonny’s bedroom immediately on the right. ER 165166, 402.

6
Acosta opened the door to Sonny’s bedroom,
whereupon Sonny immediately started yelling at
Acosta to get out. ER 164, 167, 190, 234. Matters
quickly escalated. Lam testified Acosta grabbed Sonny
by the shoulder to escort him out of the bedroom, and
“challenged” Sonny to “beat me, beat me.” ER 235-236.
Sonny shouted “no, no, no,” made punching motions
with his hands, and then pushed Acosta towards the
door, forcing both Acosta and Lam out into the hallway.
ER 167, 169, 171, 192, 236-239, 242, 248. Sonny then
turned and grabbed a pair of scissors from his desk
drawer, prompting Acosta to draw his weapon. ER 193195. Sonny stabbed Acosta in the left forearm with the
scissors, and Acosta responded by shooting Sonny in
the leg. ER 172-173, 184-186, 196, 406, 407.The bullet
went through Sonny’s calf and into the floor of Sonny’s
bedroom. ER 107-108, 110, 214-215, 412, 413. Lam ran
up from behind Acosta, and Acosta told him to go back,
that Sonny had a knife.
Immediately after the first shot, Acosta’s gun
jammed. ER 196-199, 205. He backed down the narrow
hallway to where it made an L-turn as he attempted to
clear his weapon using a “tap, rack and roll” technique.
Id. Lam was somewhere behind him. Sonny,
undeterred by the first shot, continued to advance on
Acosta in the narrow hallway, although he no longer
had the scissors.1 ER 12, 109-111, 120-121, 175, 417-

1

Two other officers who arrived at the scene testified the scissors
were found under Sonny’s legs where he fell, and then moved out
of reach as they secured the scene. ER 99-100, 146-148, 151-152,
157-158. Another officer testified she did not see any scissors as
she passed Sonny and Acosta in the hallway, and Lam testified he

7
418. As soon as Acosta cleared his weapon, he fired a
second time, striking Sonny in the abdomen. ER 199,
203a, 205. Sonny fell to the floor at the end of the
hallway, roughly ten feet from his bedroom, and later
died of his injuries. ER 109-11, 180, 201, 402-405, 417418. The entire sequence of events following the first
shot occurred in one continuous motion, within a
matter of seconds. ER 200.
B. District Court Proceedings
Lam brought an action against the City of Los
Banos and Acosta. He alleged causes of action against
Acosta under 42 U.S.C. § 1983 for violations of Sonny’s
Fourth Amendment right to be free from excessive
force, and Lam’s Fourteenth Amendment right to
familial relations. He also alleged various state law
claims against Acosta, including a cause of action for
wrongful death/negligence. Finally, he alleged a Monell
claim against the City under 42 U.S.C. § 1983 for
unconstitutional customs or policies. The district court
granted summary judgment for the City but found
triable issues of fact precluded summary adjudication
for Acosta on Lam’s Fourth and Fourteenth
Amendment claims, his state law negligence claims,
and Acosta’s defense of qualified immunity.
Acosta, an Iraq war veteran, brought a motion in
limine to exclude as irrelevant and unduly prejudicial
evidence that in 2011, two and a half years prior to this

did not see Sonny holding scissors when he ran up from behind
Acosta after the first shot to ask what happened. ER 96, 243. A
jury found Sonny did not have scissors as he advanced on Acosta
after the first shot. ER 12.

8
incident, he had been diagnosed by a Veteran’s Affairs
(“VA”) psychologist with post-traumatic stress disorder
(PTSD). There was no evidence he suffered from PTSD
or any symptoms thereof at or even around the time of
this incident. Acosta also sought to exclude as without
foundation and inviting speculation expert opinion
testimony that Acosta’s 2011 PTSD diagnosis may have
affected his decision-making during the incident. He
also objected to the expert’s opinions as improper
character evidence under Fed. R. Ev. 404 and 406. Lam
argued Acosta’s diagnosis was relevant to whether he
acted reasonably on the date of the incident; whether
he “perceived the incident appropriately” and whether
he “over-reacted.”
Although the district court found “at this point in
time there have been no facts . . . that would indicate
that [Acosta’s PTSD diagnosis] would be relevant to
what occurred at the time of the shooting” it denied the
motion in limine, without prejudice. ER 19-20.
The jury heard evidence that in February of 2011,
Acosta met with VA nurse practitioner Mary Jimenez
and reported he had been experiencing headaches,
vision problems, sensitivity to noise, poor
concentration, and forgetfulness. ER 297-299, 340-341.
He also reported difficulty making decisions,
irritability, poor frustration tolerance, feeling easily
overwhelmed and/or angered, trouble sleeping, anxiety,
and depression. ER 342-344. He reported these
symptoms had interfered “severely” with his social life,
marriage, and work in the past 30 days. ER 343. In
June of 2011, Acosta met with VA psychologist Dr.
Shuman and reported similar symptoms: difficulty

9
falling and staying asleep, irritability, outbursts of
anger, difficulty concentrating, short term memory
problems, hypervigilance partly exacerbated by his job
as a police officer, and an exaggerated startle response
to loud noises. ER 285. Dr. Shuman diagnosed Acosta
with “prolonged” PTSD, meaning it had lasted for more
than 90 days. ER 283. Dr. Shuman testified potential
triggers for Acosta’s PTSD could include clearing
houses and drawing his weapon, but he emphasized
that did not mean Acosta experienced symptoms every
time he engaged in these activities, and he had no
information as to how often this may actually have
occurred. ER 284, 290. Dr. Shuman saw no reason to
contact Acosta’s employer concerning his diagnosis and
did not advise Acosta to do so. ER 291.
Dr. Kris Mohandie, a clinical psychologist who
never met or examined Acosta, offered expert
testimony that an officer with a prior diagnosis of
PTSD could be easily provoked and may not be able to
respond flexibly or deescalate tense situations, or
might overreact to stressors in the field. ER 307, 321322. He opined Acosta should have reported his
diagnosis to the City as something that could keep him
from doing his job in a safe or effective manner
(although Dr. Shuman, who actually examined Acosta,
did not share this opinion). ER 291, 323, 332. Dr.
Mohandie suggested that two incidents in Acosta’s
personnel file, where he was disciplined for being
discourteous and for damaging a door, demonstrated
behavior consistent with symptoms of PTSD. ER 314318, 327-330. He also opined that without treatment,
prolonged PTSD symptoms are “likely to continue,” but
he had no opinion as to whether Acosta actually

10
suffered from PTSD or was fit for duty at the time of
this incident. ER 305, 307, 322.
Following the close of evidence Acosta moved for
judgment as a matter of law under Fed. R. Civ. P.
50(a). Again, he raised the defense of qualified
immunity. The district court denied the motion. The
jury returned a verdict in Lam’s favor on the Fourth
and Fourteenth Amendment claims, as well as the
state law negligence claims. App. 68-71. It found Sonny
contributorily negligent for his own injuries and
apportioned fault at 30% to Sonny and 70% to Acosta.
App. 72. In response to special interrogatories, the jury
found Sonny had stabbed Acosta with scissors, that
Acosta retreated after the first shot, and that Sonny
did not “approach Officer Acosta with scissors” before
Acosta fired the second, fatal shot. App. 73-74. The
district court entered judgment in accord with the
jury’s verdict. App. 67.
Acosta renewed his motion for judgment as a matter
of law pursuant to Fed. R. Civ. P. 50(b). He argued his
use of force was reasonable as a matter of law, that he
lacked the requisite “purpose to harm” for a Fourteenth
Amendment violation, that he was entitled to qualified
immunity in any event, and that the evidence was
insufficient to support the jury’s finding of negligence.
Alternatively, he argued the jury’s verdict should be set
aside as against the clear weight of the evidence, and
a new trial granted under Rule 59. The district court
denied the motion. App. 61-66.

11
C. Ninth Circuit Opinion – Split Decision
The Ninth Circuit, in a divided opinion, affirmed the
district court’s denial of Acosta’s Rule 50(b) motion and
its entry of judgment on the Fourth Amendment and
state law negligence claims, but reversed as to the
Fourteenth Amendment claim. The majority concluded
sufficient evidence supported the jury’s special finding
that Sonny did not have scissors as he approached
Acosta after the first shot, and therefore the jury could
properly conclude Acosta’s use of deadly force when he
fired his second shot was unreasonable. App. 14-18.
The majority also concluded Acosta was not entitled to
qualified immunity because the law was clearly
established that an officer may not use deadly force on
a suspect who does not pose an immediate threat, even
if that suspect was previously armed and aggressive.
App. 18-32.
Because Acosta did not renew his objections to the
PTSD evidence following the district court’s denial of
his motion in limine without prejudice, the Ninth
Circuit reviewed the admission of that evidence for
plain error. App. 37-39. The majority found the
evidence was relevant to the jury’s assessment of
Acosta’s credibility, and whether he accurately
perceived or recalled the incident. App. 39-41.
Judge Bennett, dissenting, opined that: (1) Acosta
was entitled to qualified immunity on the Fourth
Amendment claim, and (2) the admission of the PTSD
evidence constituted plain error requiring a new trial.
App. 43-44. He agreed with the majority’s reversal of
Lam’s Fourteenth Amendment claim. App. 44, n. 1.

12
REASONS FOR GRANTING THE WRIT
I.
Where there is no evidence an officer suffers
from PTSD or any symptoms thereof at the
time of the incident in question, it is plain error
to admit evidence of a remote PTSD diagnosis
to attack the officer’s credibility and prove he
acted unreasonably in his use of force.
The incidence of PTSD amongst law enforcement far
exceeds that of the population at large. Studies cited by
Amici Curiae below indicate that whereas 6.8% of
Americans will suffer from PTSD at some point in their
lives, that number rises to 35% amongst law
enforcement officers. National Institute of Mental
Health (“NIH”), Post Traumatic Stress Disorder (PTSD)
(2017), at https://www.nimh.nih.gov/health/statitics/
post-traumatic-stress-disorder-ptsd.shtml; Tammy L.
Austin-Ketch, PhD., FNP, BC, FAANP et al.,
Addictions and the Criminal Justice System, What
Happens on the Other Side? Post-Traumatic Stress
Symptoms and Cortisol Measures in a Police Cohort, 23
J. OF ADDICTIONS NURSING 22, 24-29. PTSD can
manifest itself in a wide variety of symptoms, which
will differ depending on the individual. Arieh Shalev,
M.D. et al., Post-Traumatic Stress Disorder, NEW ENG.
J. MED. 2459, 2460-2461 (2017). The symptoms of
PTSD are not only varied, but their severity can
“fluctuate[] over time.” Id. at 2462. Significantly,
numerous studies indicate that a PTSD diagnosis is not
static, and in many cases, can resolve itself. Patcho
Santiago, M.D. et al., A Systematic Review of PTSD
Prevalence and Trajectories in DSM-5 Defined Trauma

13
Exposed Populations: Intentional and Non-Intentional
Traumatic Events, 8 P LOS O NE 4, (2013)
[doi:10.1371/journal.pone.0059236]; Nexhmedin Morina
et al., Remission from Post-Traumatic Stress Disorder
in Adults: A Systematic Review and Meta-Analysis of
Long Term Outcome Studies, 34 CLINICAL PSYCHOL.
REV. 249, 251 (2014); Zahava Solomon Ph.D. et al.,
Trajectories of PTSD: A 20-Year Longitudinal Study,
163 AM. J. PSYCHIATRY 659, 661-663 (2006).
The significance of a published opinion holding that
a remote PTSD diagnosis is relevant and admissible to
challenge a law enforcement officer’s credibility, in the
absence of any evidence that the officer continued to
suffer from PTSD or any symptoms thereof at or
around the time of the incident in question, cannot be
overstated. Is the credibility of up to 35% of this
nation’s law enforcement officers automatically subject
to attack at any given time? If so, what does that mean
for public confidence in those who are sworn to protect
and serve? Will officers be deterred from seeking
treatment, knowing that a diagnosis could be used
against them years into the future? For those who do
seek treatment and obtain a diagnosis, what is
required of them to avoid an attack on their credibility
years later, even where their symptoms have long since
subsided or disappeared? Do they carry an affirmative
burden of demonstrating “full recovery” to avoid having
their credibility subject to attack? Or should the
burden more properly be on the party challenging the
officer’s credibility to demonstrate that a remote PTSD
diagnosis has some non-speculative nexus to the
incident in question? The answers to these questions

14
have nation-wide implications for both law enforcement
officers and the general public.
A. The majority opinion represents a marked
departure from the decisions of other
circuits, none of which have held a witness’
mental health issues may be used to
impeach their credibility in the absence of
evidence the witness suffered from the
condition at or around the time of the
incident in question.
The majority concluded that Acosta’s 2011 PTSD
diagnosis was relevant to “whether Acosta testified
credibly about the events that unfolded, and whether
his recollection could be challenged.” App. 39. Citing
cases holding that evidence of a witness’ “psychological
history” may be admissible as relevant to issues of
credibility, the majority found Acosta’s PTSD diagnosis
relevant to “his ability to accurately perceive and recall
the incident in question.” App. 40. The majority
referenced Acosta’s self-reported symptom of
“forgetfulness” and Dr. Shuman’s testimony that
clearing houses or drawing his weapon could trigger
certain PTSD symptoms such as “‘intense psychological
distress’ and ‘hypervigilance.’” App. 40. It also pointed
to Dr. Mohandie’s speculative testimony that someone
suffering from PTSD could lack flexibility and
overreact in stressful situations, and that the
symptoms associated with “prolonged PTSD” are likely
to continue if not treated. App. 40. “To the extent this
testimony indicated that Acosta’s PTSD may have
caused him to misperceive reality and consequently
overreact to certain situations, it was probative of his

15
credibility.” App. 40-41 (emphasis added). The majority
dismissed any concerns over the lack of any evidence
that Acosta actually suffered from PTSD at or around
the time of the incident, ostensibly “joining” its sister
circuits that have held admissible even more remote
mental health diagnoses. App. 41.
It is true that there are circumstances under which
a witness’ mental health issues may be relevant to
impeach their credibility. The authorities cited by the
majority support this broad proposition. But what
those authorities do not suggest, as noted by Judge
Bennett in his dissent (App. 57-58, n. 10), is that a
remote mental health diagnosis is per se relevant and
admissible where, as here, there is absolutely no
evidence that the condition is ongoing or present at the
time of the incident in question.
In United States v. Love, 329 F.3d 981 (8th Cir. 2003)
the court held the district court violated a criminal
defendant’s right to cross-examination under the
confrontation clause when it excluded evidence of a key
witness’ diagnosis of short- and long-term memory
impairment made six years prior. The court
enumerated the factors that must be considered in
assessing the relevance of a witness’ mental health
issues: “1) the nature of the psychological problems;
2) whether the witness suffered from the condition at the
time of the events to which the witness will testify; [and]
3) the temporal recency or remoteness of the condition.”
Love, 329 F.3d at 984 (emphasis added); see also United
States v. Sasso, 59 F.3d 341, 347-348 (2d Cir. 1995). In
Love, the court noted the witness “has suffered from
this condition since at least 1996" and therefore found

16
the temporal remoteness of his diagnosis did not
“eclipse” its relevance or the defendant’s constitutional
rights. Id. at 985 (emphasis added).
In United States v. Smith, 77 F.3d 511 (D.C. Cir.
1996), the court held that the district court erred in not
reviewing a witness’ medical records before excluding
evidence of his mental history, which included
hospitalization for chronic depression. Id. at 516. The
court recognized that a witness’ mental health may be
relevant and admissible impeachment evidence if “it
may reasonably cast doubt on the ability or willingness
of a witness to tell the truth.” Id. The court held the
district court should have reviewed the records to
determine their relevance, as they “might have
indicated a relevant, ongoing problem . . . .” Id. at 517
(emphasis added).
Even prior precedent from the Ninth Circuit has
recognized the need for a nexus between a witness’
mental health issues and the events as to which they
are to testify. In United States v. Antone, 981 F.2d
1059, 1061-1062 (9th Cir. 1992) the court upheld the
exclusion of mental health records where there was no
evidence the witness suffered from a mental illness
bearing on her credibility “shortly before or during the
period in which the events to which she testified
occurred.” And in United States v. Kohring, 637 F.3d
895, 910 (9th Cir. 2011) the court recognized that
“‘federal courts appear to have found mental instability
relevant to credibility only where, during the timeframe of the events testified to, the witness exhibited a
pronounced disposition to lie or hallucinate, or suffered

17
from a severe illness . . . that dramatically impaired
her ability to perceive and tell the truth.’ [Citation.].”
In United States v. Butt, 955 F.2d 77 (1st Cir. 1992),
the court addressed the “longstanding precedent that
evidence of mental instability is relevant for purposes
of impeaching a government witness.” Id. at 82. But in
its review of cases where such evidence had been found
admissible, a common thread emerged. The mental
illness or instability must not only have a clear
connection to the witness’ credibility – specifically their
ability to perceive or to recall events or to testify
truthfully – but there must be some showing the
witness suffered from the condition “at the time” or
“during the time-frame” of the events testified to. Id. at
82-83. The court upheld the exclusion of a single report
describing the witness as suffering from “atypical
depression” and “borderline personality disorder”
finding no evidence either condition would impact on
the witness’ ability to perceive events accurately or
testify truthfully. Id. at 83. It found that although one
could not “rule out” any relationship between the
witness’ past mental health issues and her credibility,
and it was possible the witness’ depression “colored her
perception of reality,” the district court did not abuse
its discretion in requiring a tighter nexus to justify the
admission of “such personal and potentially
stigmatizing material.” Id. at 83-84.

18
B. Where, as here, there is no evidence the
witness suffered from the mental health
condition at or around the time of the
incident in question, the admission of a
remote mental health diagnosis presents
an unacceptable risk of prejudice and
constitutes plain error.
Absent any demonstrable connection to the incident
in question, the burden of which should lie on the party
seeking its admission, evidence of an officer’s remote
PTSD diagnosis allows a jury to speculate that the
officer suffered from PTSD at the time in question and
invites it to conclude that the officer more likely than
not acted in a manner consistent with someone
suffering from symptoms of PTSD. The evidence not
only lacks relevance, it presents the unacceptable risk
of prejudice that is inherent in improper character
evidence. Fed. R. Evid. 404(a)(1) (prohibiting the
admission of evidence of a person’s character or
character trait to prove they acted in conformity with
that trait on a particular occasion).
The court in Butt, supra, expressly recognized this
risk. There, in addition to upholding the exclusion of
evidence of the witness’ reported conditions, the court
also upheld the exclusion of expert testimony of general
behavioral traits associated with the reported
conditions as impermissible character evidence. Butt,
955 F.2d at 85. The expert in Butt had never met or
examined the witness and could offer no opinion on her
present or past mental condition. Id. “Quite apart from
the fact that the expert testimony bore no relation to
[the witness] personally, is the necessarily tentative

19
nature of its conclusions. It defines psychological terms
as a medical textbook might . . . . The testimony
describes tendencies only, cataloging a range of
behavior that one so diagnosed might or might not,
sometimes, exhibit.” Id. (emphasis added). Whatever
remote relevance such generalizations might have, they
posed a considerable risk of prejudicing and/or
confusing the jury. Id.
The prejudice resulting from the admission of such
evidence can be devastating, and as this case
demonstrates, result in a gross miscarriage of justice.
Judge Bennett, dissenting below, correctly concluded
that “given the complete lack of evidence showing that
Officer Acosta suffered from . . . . [PTSD] at the time of
the 2013 incident in question,” the district court
committed plain error in admitting evidence related to
Acosta’s 2011 diagnosis. App. 43-44. In Judge Bennett’s
view, whatever “slight” relevance to Acosta’s credibility
the majority posited from his remote PTSD diagnosis,
it was far outweighed by the very substantial risk of
unfair prejudice or of misleading the jury. App. 56
(citing United States v. Hitt, 981 F.2d 422, 424 (9th Cir.
1992)).
Judge Bennett expressly acknowledged what the
majority did not; that “Lam’s central theory was that
Officer Acosta acted unreasonably because of his
PTSD.” App. 46 (emphasis added). Lam argued to the
jury that Acosta’s PTSD caused him to “overreact” and
respond unreasonably to the circumstances confronting
him. App. 48. He used the PTSD evidence “to
improperly urge the jury to find that Officer Acosta

20
acted unreasonably at the time of the incident because
he was then suffering from PTSD . . . .” App. 57.
Judge Bennett was correct. In response to Acosta’s
motion in limine to exclude the PTSD evidence, Lam
argued that Acosta’s remote PTSD diagnosis made it
“more probable that Acosta acted unreasonably” on the
date of this incident and spoke “directly” to Acosta’s
“ability to make constitutionally reasonable decisions.”
According to Lam, the evidence “[could not] be more
probative as related to [Acosta’s] decision to shoot and
kill Sonny Lam.” See Dkt. 125, 134. Lam’s opening
statement to the jury began with the representation
that Acosta had been previously diagnosed with a
“mental health issue” that “interfered with his ability
to do his job” and that he concealed that condition from
his employer. Dkt. 179 at 86. Lam argued Acosta’s
mental health condition caused him difficulties
performing his basic job duties, and he ended up
shooting Sonny twice: he was not mentally fit. Dkt. 179
at 87. Finally, Lam spent most of his closing argument
insisting that Acosta’s PTSD drove his actions on the
date of this incident. Lam listed all the symptoms
Acosta reported in 2011 and argued that Acosta carried
these “demons” with him “every day” to work, including
the date of this incident. ER 67-69, 72, 75. He argued
that Acosta was “haunted” by these demons, which left
a “stain” or a “scar” on his psyche. ER 58-59. He argued
that Acosta’s disciplinary record contained incidents
that were consistent with actions taken by someone
who was hypervigilant, overreactive, and had an
increased startle response, all common symptoms of
PTSD. ER 66-67. Ultimately, he invited the jury to
speculate that entering the Lam household and

21
drawing his weapon “triggered” Acosta’s PTSD and
caused him to have an “unreasonable” response to the
situation confronting him. ER 63-64, 71-72, 79.
In short, evidence of Acosta’s diagnosis and the
“characteristics” or “traits” of PTSD were used to prove
that Acosta acted in conformity with what one would
expect from a person suffering from PTSD. This is
impermissible character evidence, and its prejudicial
impact cannot be overstated. The dissent properly
recognized a “reasonable probability” that this evidence
and counsel’s arguments caused the jury to conclude
Acosta responded to the situation confronting him in an
objectively unreasonable manner, thereby leading to its
verdict that Acosta used excessive force in violation of
the Fourth Amendment. App.58-59.
II.
The opinion below improperly denies qualified
immunity by defining the circumstances facing
Acosta at a high level of generality: there was
no clearly established law that would put every
reasonable officer on notice that a suspect who,
within a matter of seconds has stabbed an
officer, been shot, and dropped his weapon but
continues to advance on the officer in a
confined space does not pose an immediate
threat.
Even where an officer’s use of force has been found
excessive, qualified immunity will protect the officer
from liability unless he has violated “‘clearly
established statutory or constitutional rights of which
a reasonable person would have known.’ [Citation.]”

22
Kisela v. Hughes, 138 S.Ct. 1148, 1152 (2018) (per
curiam). “‘Because the focus is on whether the officer
had fair notice that her conduct was unlawful,
reasonableness is judged against the backdrop of the
law at the time of the conduct.’ [Citation.]” Id. The
contours of the right the officer is alleged to have
violated must be “sufficiently clear that every
reasonable official would have understood that what he
is doing violates that right.” Ashcroft v. al-Kidd, 563
U.S. 731, 741 (2011) (internal quotations, citation
omitted). While there need not be a case directly on
point, to deny an officer qualified immunity there must
be some precedent which puts the unlawfulness of the
officer’s conduct in that particular situation “beyond
debate.” Kisela at 1152; City of Escondido v. Emmons,
139 S.Ct. 500, 504 (2019) (per curiam). “‘[Qualified]
immunity protects all but the plainly incompetent or
those who knowingly violate the law.’” Kisela at 1152.
This Court has repeatedly admonished the lower
courts – and particularly the Ninth Circuit – to not
analyze the question of whether the law was clearly
established law at a high level of generality. City of
Escondido, 139 S.Ct. at 503; Kisela, 138 S.Ct. at 1152;
City and County of San Francisco v. Sheehan, 135 S.
Ct. 1765, 1775-1776 (2015); Ashcroft v. al-Kidd, supra,
563 U.S. at 742; Brosseau v. Haugen, 543 U.S. 194,
198-199 (2004) (per curiam). The need for specificity is
crucial in excessive force cases:
“Specificity is especially important in the Fourth
Amendment context, where the Court has
recognized that it is sometimes difficult for an
officer to determine how the relevant legal

23
doctrine, here excessive force, will apply to the
factual situation the officer confronts. Use of
excessive force is an area of the law in which the
result depends very much on the facts of each
case, and thus police officers are entitled to
qualified immunity unless existing precedent
squarely governs the specific facts at issue. [¶]
[I]t does not suffice for a court simply to state
that an officer may not use unreasonable and
excessive force….”
City of Escondido at 503 (internal quotations and
citation omitted).
Here, the Ninth Circuit has once again denied an
officer qualified immunity by defining the right
violated in highly generalized terms. Although the
majority did not go so far as to simply state an officer
may not use excessive force, it went no further than
simply stating that an officer may not use deadly force
on a suspect who does not pose an immediate threat.
App. 20-32. The majority’s various formulations of the
clearly established law in these terms provide nothing
more than a rephrasing of the general right to be free
from excessive force. It is axiomatic that the use of
deadly force to apprehend or subdue a suspect who
poses “no immediate threat to the officer or others” is
per se excessive. Tennessee v. Garner, 471 U.S. 1, 11
(1985). “The standards from Garner… ‘are cast at a
high level of generality,’ so they ordinarily do not
clearly establish rights.” Isayeva v. Sacramento
Sheriff’s Dep’t, 872 F.3d 938, 951 (9th Cir. 2017) (citing
Brousseau v. Haugen, 543 U.S. at 199). But “it is the
facts of particular cases that clearly establish what the

24
law is.” Isayeva at 951. And unless the officer’s use of
force is obviously unlawful, there must be existing
precedent presenting facts similar to those confronting
the officer claiming qualified immunity. Id.
Here, the qualified immunity analysis required an
inquiry into whether clearly established law would
have put every reasonable officer in Acosta’s particular
situation on notice that Sonny Lam did not pose an
immediate threat and so the continued use of deadly
force was excessive. The majority relied largely on
Hopkins v. Andaya, 958 F.2d 881 (9th Cir. 1992) (per
curiam), overruled on other grounds by Saucier v. Katz,
533 U.S. 194 (2001), a case with facts markedly
different from those facing Acosta, to answer that
question in the affirmative. App. 22.
As relayed by the majority, the suspect in Hopkins
grabbed the officer’s baton and struck him several
times, whereupon the officer fired six shots, injuring
but not killing the suspect. App. 22. The officer then
retreated and the suspect, no longer holding the baton,
continued to advance on the officer. App. 22. When the
suspect ignored the officer’s warnings to stop, the
officer fired again, killing the suspect. App. 22. On
review from summary judgment, the court in Hopkins
could not say as a matter of law the officer acted
reasonably in firing the second round of shots, because
the suspect “had been wounded and was unarmed” and
the officer had alternatives available, such as evasion
or waiting for backup or using nonlethal force to
subdue the suspect. App. 23 (citing Hopkins at 887).
The majority here found these facts dispositive of its
conclusion that Sonny no longer posed an immediate

25
threat when Acosta fired his second shot, and therefore
his use of deadly force was not objectively reasonable.
App. 22, 23. It noted that “Sonny was injured and was
not approaching Acosta with scissors, . . . . Acosta was
retreating from Sonny, [and] Acosta could have
retreated further, even out of the house, and waited for
backup.” App. 23. Hopkins, according to the majority
“clearly established that Acosta’s second shot violated
the Fourth Amendment . . . .” App. 26.
But the majority failed to acknowledge obvious and
critical facts that distinguish Hopkins from the
circumstances confronting Acosta. In Hopkins, the
suspect attacked the officer in a parking lot, and after
the officer fired the first round of shots he retreated
across a major thoroughfare and hid behind a car at a
gas station on the other side of the street. Hopkins, 958
F.2d at 883, 887. When the suspect, now wounded and
unarmed, continued to approach and got within a car’s
length of the officer, the officer fired again. Id.
Significantly, several minutes passed between the first
and second round of shots, and the officer had ample
opportunity to continue his retreat. Id. at 886-887.
Here, Acosta was only able to retreat about ten feet
down a confined hallway, in an unfamiliar home, with
Tan Lam, another potential victim, somewhere behind
him. Acosta had only a few seconds to decide what to
do, a fact the majority inexplicably concluded was “not
ultimately meaningful.” App. 27. As soon as Acosta
reached the end of the hallway and cleared his weapon,
he fired the second shot.
The differences between Hopkins and the present
case “leap from the page.” Kisela, supra, 138 S.Ct. at

26
1154 (internal quotations and citation omitted). The
majority’s reliance on a case with such clearly
distinguishable facts “does not pass the straight face
test” and would not have put the unlawfulness of
Acosta’s conduct beyond question. Id. (rejecting Ninth
Circuit’s reliance on a readily distinguishable
precedent – comparing the use of deadly force by an
FBI sniper on a hilltop against a retreating suspect to
that of a police officer against a knife-wielding,
mentally ill suspect only six feet from a potential victim
– to find “clearly established” law). In marked contrast
to Hopkins, the facts of this case present exactly the
kind of “split-second” decision making by an officer “in
circumstances that are tense, uncertain, and rapidly
evolving” that this Court has long held should not be
second-guessed. Graham v. Connor, 490 U.S. 386, 388
(1989).
The majority also relied on a number of other
readily distinguishable cases denying qualified
immunity where officers continued to use deadly force
on a previously armed suspect after an initial use of
force rendered the suspect incapacitated. App. 29-31.
Those cases could serve only to put a reasonable officer
on notice that the continued use of deadly force on a
previously armed, wounded suspect is no longer
reasonable where the suspect has actually fallen to the
ground or is otherwise unable to pose any threat. Zion
v. County of Orange, 874 F.3d 1072, 1075-1076 (9th Cir.

27
2017)2 (suspect assaulted officer with a knife, was shot
nine times and fell to the ground, after which the
officer approached and fired nine more shots); Estate of
Jones v. City of Martinsburg, 961 F.3d 661, 668-670 (4th
Cir. 2020) (suspect who had been tased four times hit
and stabbed officer during attempts to subdue him,
officers moved back and after observing suspect
motionless on ground, fired 22 rounds); Estate of Smart
v. City of Wichita, 951 F.3d 1161, 1175 (10th Cir. 2020)
(unarmed suspect lying face down on ground with arms
out); Harris v. Pittman, 927 F.3d 266, 281 (4th Cir.
2019) (clearly established that “police officer who has
just survived a harrowing encounter that required the
use of deadly force to extricate himself may not
continue to use deadly force once he has reason to know
that his would-be assailant is lying on the ground
wounded and unarmed….”); Fancher v. Barrientos, 723
F.3d 1191, 1201 (10th Cir. 2013) (suspect who had
assaulted officer entered police vehicle and put it in
reverse, officer fired striking the suspect in the chest,
and had time to step back and see the suspect had
slumped over and was no longer able to control the
vehicle (i.e., was no longer an immediate threat) before
firing six more shots); Meyers v. Baltimore Cnty., 713
F.3d 723, 735 (4th Cir. 2013) (officers sat on unarmed
suspect who had been tased and fallen to ground, then
tased suspect seven more times causing his death);
Brockington v. Boykins, 637 F.3d 503, 507 (4th Cir.
2011) (officer fires second round of shots at close range
2

Although the facts of Zion are readily distinguishable from the
present case, the majority also erred in relying on Zion because it
was decided after this incident, and so could not have put a
reasonable officer in Acosta’s position on notice of anything.

28
after unarmed suspect had fallen to the ground and lay
on his back, unable to get up or defend himself).
The clearly established law relied on by the majority
at most tells every reasonable officer that where a
suspect has assaulted an officer with a deadly weapon,
been wounded by the officer’s use of deadly force in
response, dropped his weapon and fallen to ground or
become clearly incapacitated, the officer may no longer
engage in the continued use of deadly force. There is no
precedent, however, which would inform every
reasonable officer that if the wounded but unarmed
suspect continues to advance on the officer in a confined
and unfamiliar space, the officer must utilize his “splitsecond” decision making skills to process the fact the
suspect no longer has a weapon, put his own firearm
securely away, and then select and utilize an
alternative means of subduing the suspect, and/or
retreat into unfamiliar environs where there is another
potential victim to worry about. A wounded but
advancing suspect is neither on the ground nor clearly
incapacitated, and no clearly established law would
have informed Acosta that Sonny no longer posed an
immediate threat.
Indeed, given the totality of circumstances leading
up to Acosta’s second shot (see District of Columbia v.
Wesby, 138 S.Ct. 577, 589 (2018)), the majority’s
conclusion that Sonny no longer posed an immediate
threat is far from an obvious one. Sonny’s reaction
when he first encountered Acosta was extreme. He
immediately began yelling at Acosta to “get out” and
punching his fists into the air. He started pushing
Acosta out of the room, and then suddenly turned

29
around, grabbed a pair of scissors and stabbed Acosta
in the forearm. When Acosta shot him in the leg, Sonny
did not stop. He continued to follow Acosta down the
hallway as Acosta tried to clear his weapon. Acosta was
not familiar with the layout of the home and had no
idea what his retreat options were. He had no idea if
any other weapons were in the home and accessible to
Sonny if he continued to retreat. Tan Lam, another
potential victim, was somewhere behind him. In the
few seconds available to make a decision, would every
reasonable officer backing down a confined hallway in
an unfamiliar home know “beyond debate” that they
could no longer use their firearm to subdue such a
suspect? Would they know “beyond debate” that they
must evaluate and select from alternative courses of
action? That they must put their firearm away and
turn to some other non-lethal option such as a baton, or
a taser, or pepper spray, or simply the officer’s fists?
The answer to all of these questions is a resounding
“no.”
“The concern of the immunity inquiry is to
acknowledge that reasonable mistakes can be
made as to the legal constraints on particular
police conduct. It is sometimes difficult for an
officer to determine how the relevant legal
doctrine, here excessive force, will apply to the
factual situation the officer confronts. An officer
might correctly perceive all the relevant facts
but have a mistaken understanding as to
whether a particular amount of force is legal in
those circumstances. If the officer’s mistake as to
what the law requires is reasonable, however,
the officer is entitled to the immunity defense.”

30
Saucier v. Katz, 533 U.S. 194, 205 (2001). Here,
although the jury concluded that Acosta’s use of force
was excessive, Acosta could not have known that at the
time. The only thing that was “beyond debate” was that
Sonny was clearly unstable and had no intention of
submitting on his own accord. Because it would not
have been clear to every reasonable officer that Sonny
no longer posed an immediate threat, the denial of
qualified immunity in this case was error.
CONCLUSION
The Ninth Circuit’s published decision holding that
a remote PTSD diagnosis is per se relevant to a law
enforcement officer’s credibility, in the absence of any
evidence the officer suffered from that condition at the
time of the incident in question, presents a dangerous
and marked departure not only from its own precedent
but from that of its sister circuits which recognize the
need for some demonstrable nexus between a witness’
mental health condition and the events to which they
are testifying. Absent such a nexus, the admission of
such evidence is not only irrelevant, it presents an
inherent and substantial risk of prejudice and
constitutes plain error.
The Ninth Circuit’s continued insistence on defining
clearly established law at a high level of generality for
purposes of analyzing the question of qualified
immunity cannot be left uncorrected. A proper analysis
in this case required an assessment not of whether an
officer could use deadly force on a suspect who does not
pose an immediate threat, but whether clearly
established law would have put every reasonable officer
on notice that, under the specific circumstances

31
presented here, Sonny did not pose an immediate
threat. As set forth above, it would not.
This Court should grant the petition for a writ of
certiorari and reverse the decision of the Ninth Circuit
Court of Appeals on the issues presented herein.
Respectfully submitted,
SUZANNE M. NICHOLSON
Counsel of Record
Attorney at Law
770 L Street, Suite 950
Sacramento, CA 95814
Tel: 916-361-6551
suzanne@smnlegal.com
DALE ALLEN
KEVIN P. ALLEN
Allen, Glaessner, Hazelwood &
Werth, LLP
180 Montgomery Street
Suite 1200
San Francisco, CA 94104
kallen@aghwlaw.com
Counsel for Petitioner

